PROOF OF SERVICE

I, Frederick W. Claybrook, Jr., a member of the bar of this Court, hereby certify that
on the 29th day of April, 2020 three (3) copies of the Brief Amici Curiae of National
Legal Foundation, et al., in support of the Petitioners in No. 19-1184; were served
by first-class mail, postage pre-paid, on the following:
Counsel for Petitioners
John J. Bursch
Counsel of Record
Alliance Defending Freedom
440 First Street N.W.
Washington, DC 20001
jbursch@adflegal.org
Counsel for Respondents
Michael Edwin Kennedy
Counsel of Record
City of Pittsburg Law Department
414 Grant Street
313 City-County Building
Pittsburg, PA 15219
michael.kennedy@pittsburghpa.gov
/s/ Frederick W. Claybrook, Jr.
FREDERICK W. CLAYBROOK, JR.
Counsel of Record
CLAYBROOK LLC
700 Sixth St., N.W., Ste. 430
Washington, D.C. 20001
tel. (202) 250-3833
Rick@claybrooklaw.com

